HHS/OIG, Audit -"Review Of Payments For Transportation Services Made To Special Service School Districts Under New Jersey's Medicaid Program,"(A-02-02-01022)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Payments For Transportation Services Made To Special Service School Districts Under New Jersey's Medicaid
Program," (A-02-02-01022)
April 17, 2003
Complete
Text of Report is available in PDF format (517 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether federal Medicaid payments for transportation services paid to Special
Service School Districts (SSSDs) within New Jersey were allowable and made in accordance with applicable federal and state
regulations and guidelines.  We determined that during the period July 1, 1998 through June 30, 2001, 7 of the 8 SSSDs
were improperly reimbursed for transportation services and New Jersey improperly claimed $1,223,426 of federal financial
participation (FFP) under the Medicaid program for these services.  In our opinion, the improper payments were primarily
caused by a lack of effective administrative or prepayment controls to prevent SSSDs from being reimbursed for transportation
services.  We discussed this issue with state officials who agreed with our findings and instituted corrective actions
consisting of the establishment of an edit to preclude SSSDs from being reimbursed for transportation services.  We
recommended that New Jersey refund $1,223,426 to the Federal Government, identify and return any improper FFP claimed subsequent
to June 30, 2001, and periodically review the SSSD transportation edit to ensure that it is functioning as intended.  New
Jersey officials concurred with our findings and recommendations.